<html>
<title> - THE MIDDLE EAST: THE ROAD TO PEACE</title>
<body><pre>[Senate Hearing 111-286]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 111-286

                   THE MIDDLE EAST: THE ROAD TO PEACE

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 14, 2009

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html




                  U.S. GOVERNMENT PRINTING OFFICE
55-116 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       Republican Leader designee
BARBARA BOXER, California            BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JOHNNY ISAKSON, Georgia
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   JIM DeMINT, South Carolina
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
JEANNE SHAHEEN, New Hampshire        ROGER F. WICKER, Mississippi
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        




                            C O N T E N T S

                              ----------                              
                                                                   Page

Blair, Hon. Tony Blair, Quartet Representative, former Prime 
  Minister of the United Kingdom and Envoy to the Middle East, 
  London, United Kingdom.........................................     5
    Prepared statement...........................................     9
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3

              Additional Material Submitted for the Record

Dodd, Hon. Christopher J., U.S. Senator from Connecticut, 
  prepared statement.............................................    36

                                 (iii)



 
                   THE MIDDLE EAST: THE ROAD TO PEACE

                              ----------                              


                         THURSDAY, MAY 14, 2009

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:04 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Feingold, Boxer, Cardin, Shaheen, 
Kaufman, Lugar, Corker, and Risch.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order.
    It's a great pleasure for me today to be able to welcome a 
tremendous friend of the United States of America, and who I 
can happily call a good friend. And we're delighted to have 
Prime Minister Blair here with us.
    Since ending his decade of service as Britain's Prime 
Minister, Tony Blair has continued to lead on global 
challenges, from development in Africa to interfaith tolerance 
to climate change. And at a moment when many people might have 
been content simply to leave public office and rest on their 
laurels, Tony Blair left office and volunteered for another 
assignment. He's here today as the Middle East Quartet 
Representative to discuss the prospects for peace.
    As all the members of the committee know, this week, and 
this month, are critical for the administration's Mideast 
policymaking. Egyptian President Hosni Mubarak, Israeli Prime 
Minister Benjamin Netanyahu, and Palestinian resident Mahmoud 
Abbas will all be here visiting Washington. They will also 
visit with the committee, as well as the administration. And we 
expect that, in the wake of those meetings, the administration 
and the Quartet will be releasing more details about their 
plans for peacemaking.
    And in early June, President Obama will travel to Egypt to 
deliver his much-anticipated speech about America's relations 
with the region and the wider Muslim world.
    We all understand that peace will not come easily to the 
Middle East, or even quickly, but I share Mr. Blair's optimism 
that this moment presents an opportunity that we can't afford 
to miss. If we are to avoid perpetual conflict and 
radicalization, more missed opportunities, and countless lives 
lost, then we have to pursue peace now, and with urgency.
    One particularly promising diplomatic opening is Saudi King 
Abdullah's Arab Peace Initiative, which never received the 
focus that many think it deserved when it was proposed in 2002. 
Every Arab country has now agreed to the basic formulation of 
land for peace, recognition of the State of Israel, and 
normalization of relations. The Arab Initiative must now grow 
into a dynamic, evolving Arab engagement with Israel and with 
the Palestinians.
    The simple reality is, the regional dynamics of the Middle 
East have shifted, and today most Arab governments are more 
concerned about Iran than they are about Israel. Our challenge 
is to translate these changed dynamics into a regional roadmap 
that signs all of the key players to take a series of concrete 
interim steps on the road to peace.
    We know that among the reasons Camp David failed was the 
lack of a buy-in from Arab States whose support would have 
given Israel the broader peace that it sought and also give 
Palestinians the necessary cover to make difficult decisions. 
That's a shortfall that we now have an opportunity to address 
by developing a regional roadmap that fleshes out the promise 
of the Arab Peace Initiative.
    A key aspect of this--and I emphasize that I've had a 
number of conversations with Prime Minister Blair and with 
other leaders in the region--a key aspect of the steps forward 
is the empowering of those Palestinians who are committed to 
peace. It's not enough to talk about giving Israel a legitimate 
partner for peace; we have to work to support and empower that 
partner to be able to deliver for its people, to build 
capacity, and to gain legitimacy.
    We have seen real progress in increasing Palestinian 
capacity and economic development, and this is progress we need 
to build on. In Jenin, thanks, in part, to Prime Minister 
Blair's efforts, we've seen the sight of some of the worst 
violence of the second intifada become a place where 
Palestinians police the streets and economic growth is a 
reality for many. General Dayton's efforts to train Palestinian 
security forces have also been encouraging. During the invasion 
of Gaza, Palestinian security forces largely succeeded in 
maintaining calm in the West Bank amidst widespread 
expectations of civil unrest. But, make no mistake, as I'm 
confident that Prime Minister Blair will share with us today, 
much work remains to be done.
    In Gaza, where Tony Blair visited in March, we need to 
ensure that we deliver desperately needed humanitarian aid and 
reconstruction assistance without empowering Hamas in the 
process. Having courted destruction, Hamas and Iran cannot be 
allowed to take credit for the rebuilding, just as Hezbollah 
did in the wake of the Lebanon war in 2006. As Prime Minister 
Blair has said, ``Economic and humanitarian progress will not 
be enough. There is no substitute for political progress toward 
a two-state solution.'' That is today, has been for these past 
years, and remains American policy, and I'm confident that the 
President will be firm on this point when the region's leaders 
meet later this month.
    The President has picked an ideal envoy in Senator George 
Mitchell, who worked closely with then-Prime Minister Blair to 
achieve the Good Friday Agreement in Northern Ireland, so this 
is a team with a proven track record.
    We will also need help from Israel. Nothing will do more to 
make clear our seriousness about turning the page than 
demonstrating, with actions rather than words, that we are 
serious about Israel freezing settlement activity in the West 
Bank. As recently as 2007, at the Annapolis Conference, Israel 
recommitted to implementing its obligations under the roadmap, 
which include freezing all settlement activity. We will defend 
Israel's security unflinchingly, but the fact is, Israelis 
themselves decided that the settlements make it more difficult 
to protect the security of their citizens. They're not just 
fragmenting the Palestinian state, they fragment what the 
Israeli defense forces have to defend.
    None of us can afford to continue on the present course, 
and nothing drove home to me more the human toll of continued 
conflict over 26 years of visits to the region than a recent 
day I spent visiting the southern Israeli village of Sderot and 
the Gazan town of Izbet Abed Rabo.
    In Sderot, which has been the target of thousands of 
rockets over the last 8 years, security officials told me that, 
from the moment they know a rocket has been fired from Gaza, 
people have just 15 seconds to find safety. Children in the 2nd 
grade have spent literally every day of their lives never more 
than 15 seconds from danger.
    In Izbet Abed Rabo, in Gaza, I saw little Palestinian girls 
playing in rubble, where, just months ago, buildings stood. I 
saw the ruins of the American school in Gaza, but I also saw a 
glimmer of hope in the faces of average Palestinians who manage 
and are determined to carry on with their daily lives. As I 
said in Gaza, and I said it in Sderot also, if terrorists in 
Quincy, MA, were launching rockets into Boston, we would have 
had to have put a stop to it long before the Israelis chose to 
put a stop to it in Gaza.
    But, on both sides, I was inspired by the determination of 
all who live with the daily reality of this conflict. And if 
kids on both sides can hope for themselves, if they can 
persevere for a better future, then we have an obligation to 
help them get there.
    Senator Lugar.

              STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman. And 
I join you in welcoming a very special friend, Mr. Tony Blair, 
to our committee.
    It is an honor to have the Prime Minister with us. In his 
position as Quartet Representative, he is specifically charged 
with revitalizing the Palestinian economy, organizing 
international assistance, and promoting the Quartet objectives. 
We appreciate the experience and insights he brings to this 
issue and his willingness to testify.
    The United States has a strong national security interest 
in helping to achieve a resolution of the conflict between 
Israel and the Palestinians. Beyond the humanitarian imperative 
of achieving peace, such a settlement would strengthen American 
credibility in the region, hinder terrorist propaganda and 
recruitment, and open new possibilities for cooperation with 
states in the region on an array of issues. It would also 
diminish the influence of Iran, which is exploiting the 
conflict for its own purposes.
    President Obama has stated clearly that a comprehensive 
peace between Israel and the Palestinians is in the national 
interest of the United States. He says he wants results, not 
just a process. He has assigned a new special envoy, our friend 
Senator George Mitchell, to engage in the detailed diplomacy 
required of such an effort. When we met with Senator Mitchell 
several weeks ago, he spoke with energy and pragmatism about 
the task at hand. We also heard from King Abdullah of Jordan 3 
weeks ago, who communicated the support of leaders of the Arab 
States for ``decisive action'' toward a settlement. In 
addition, there is substantial support within Israeli and 
Palestinian societies for a resolution to the conflict. A 
recent poll, published by OneVoice, found that 74 percent of 
Palestinians and 78 percent of Israelis want a two-state 
solution.
    Yet we know that the history of peace negotiations has been 
extremely difficult and frequently unproductive. Too often, 
momentum has been stymied by disagreement on minute negotiating 
points or rhetorical diversions that are nearly inconsequential 
to the type of bold, comprehensive approach that would be 
necessary for a settlement. Further, despite substantial 
support for peace within their respective societies, both the 
Israelis and the Palestinians are politically divided and their 
governments lack clear mandates to accept major sacrifices in 
the interest of peace. A peace settlement would require Israeli 
and Palestinian leaders with thin majorities to get beyond 
calculations designed to protect their own political interests.
    In this context, generating meaningful progress toward a 
settlement will require the international community, led by the 
United States, to be very active and creative in engaging the 
parties and providing incentives. It is essential that the 
administration and Congress be united in our commitment to 
pursuing peace in the Middle East. We may not agree precisely 
on tactics, but serious divisions within our government could 
be exploited by those who have other agendas.
    I am hopeful that our government and our partners overseas 
will work to build international momentum for a settlement, and 
I am hopeful that we will be bold in proposing options. Both 
Israel and the Palestinians urgently need international support 
to fortify their ability and willingness to embrace the 
difficult choices that will be necessary.
    We look forward with anticipation to our dialogue with 
Prime Minister Blair.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Lugar.
    Mr. Prime Minister, thank you so much for being here. I 
promised you this would be a lot easier than questions in 
Parliament, and it will be. [Laughter.]
    We're really happy you could take time to be here. This 
committee is deeply interested in the issues you're going to 
talk about today, so we look forward to your testimony.

 STATEMENT OF HON. TONY BLAIR, QUARTET REPRESENTATIVE, FORMER 
 PRIME MINISTER OF THE UNITED KINGDOM AND ENVOY TO THE MIDDLE 
                  EAST, LONDON, UNITED KINGDOM

    Prime Minister Blair. Thank you, Mr. Chairman and everyone. 
Thank you so much for making me feel welcome here today. And 
it's a very great honor and privilege to come before this most 
distinguished committee.
    As you know, I've submitted a short written statement, and 
I'll speak and give an outline of how I see the situation.
    And, first of all, just to say that I entirely agree with 
Senator Kerry that this is a moment of opportunity. President 
Obama has made it very clear that this is a strategic priority 
for the United States, to advance toward a negotiated two-state 
solution. This is an issue that Secretary of State Clinton is 
very familiar with and understands and knows deeply.
    The appointment of Senator Mitchell, who is my old 
collaborator from the peace negotiations in Northern Ireland 
is, again, someone for whom I have the highest respect and the 
highest regard for his ability.
    And General Jones, of course, is somebody I worked with 
specifically in and around the Jenin area, in the northern part 
of the West Bank territory, just a few months back.
    So, I think most people feel, from the outside, that this 
is an administration as well equipped as any possibly could be 
to take this issue forward.
    And also, what Senator Lugar was saying a moment or two ago 
about the--according to the opinion poll, the opinion both on 
the Palestinian and Israeli side, there is absolutely no doubt 
at all in my mind, as indeed the poll indicates, that if people 
thought it was possible to get a two-state solution, then 
certainly that is the desired outcome. And I think the question 
really is very simple. Most people want the two-state solution. 
There's virtually a consensus across the international 
community. There are majorities in favor, in principle, in 
Israel and in the Palestine Territory. The question is, How do 
we do it? How do we take this extraordinary, complex set of 
challenges and turn that opportunity into a credible 
negotiation for the two-state solution?
    And I suppose the main thing that I would say to you today 
is that there are, of course, issues that have to be resolved 
in that negotiation for a final settlement, and those issues 
are very well known to people, over territory, including the 
area of land swaps, Jerusalem, refugees, security, water, many 
other issues.
    My basic view is that those issues, although immensely 
challenging, are resolvable. People can see the way through to 
resolving them. And over the years, many possible options have 
been canvassed as to how they're resolved.
    The point that I would like to make to you today, however, 
is this, that what is important is to pay attention, not merely 
to the issues that will occur and have to be resolved in any 
final settlement negotiation, but also pay attention, 
crucially, to what actually happens on the ground. And that's 
why I ask that these visual aids--they're maps which will be 
very familiar to you, but I'd like to point out certain things 
about them.
    And the first thing, to be clear, is, when we actually see 
the territory that comprises what would be both the Israeli and 
the Palestinian state, it is a small bit of territory in a very 
large region, and it's a territory in which, when you analyze 
the 1\1/2\ million people, maybe, that live in Gaza, 2 and--
roughly 2\1/2\ that live in the West Bank, the just over 7 
million that live in the Israeli Territory, you see that small 
bit of territory and those numbers of people, and you realize 
there is no real alternative but for both to have the 
opportunity of statehood in order for them to live peacefully 
together. And there is no way, if there is not peace between 
people living in that close proximity on that small part of 
land--if it's not peace, it is conflict.
    And so, the question is, How, as I say, do we get there? 
And the on-the-ground reality that I think is important works 
in two ways. For the Israelis, their on-the-ground reality is 
very simple. They have a major security issue. If there are 
terrorists, as there are in Gaza, who are firing rockets into 
Israel--and, as Senator Kerry was saying, in Sderot there are 
people there who live in daily fear of their lives--that is 
obviously an immensely serious security challenge for the 
Israelis. And that is why the situation in Gaza has been so 
difficult and so fraught after the illegal coup by Hamas there.
    But, just take it to the West Bank and see the close 
proximity of the West Bank to the major centers of population--
Tel Aviv and obviously, of course, the shared space of 
Jerusalem--and you see that, without proper security for the 
Israelis, a Palestinian state becomes, for them, a possible 
threat rather than a possible opportunity.
    So, my basic view is that, for Israel to be able to accept 
a Palestinian state, they need to know, not just the territory, 
not just what this map would look like and what it's called, 
they need to know what is happening inside that territory. Is 
that Palestinian state a stable and secure neighbor and partner 
for enduring peace? That is, if you like, the Israeli on-the-
ground reality, concern.
    Now, for the Palestinians, they have a different concern, 
but it is equally intimately related to what happens in reality 
on the ground. For the Palestinians, as you see from this 
second map here, they have a certain amount of the territory, 
which are major urban centers. These are the darker areas here. 
And then, of course, they have a large part of the West Bank 
that is what we call Area C, which is under administrative 
control of the Israelis, but it's about 60 percent of the 
territory. And throughout the part of the West Bank there are 
settlements or outposts, and, of course, because of the 
security threat that Israel perceives, there are also major 
restrictions on access and movement for the Palestinians.
    So, the Palestinian concern is really this. If they manage 
to negotiate their way toward a two-state solution, will their 
state be one in which they can genuinely take control of their 
territory and run it as an independent, viable state? Will, in 
other words, the existence of settlements or outposts in this 
territory prevent the state being viable, or will the existence 
of Israeli forces on the West Bank prevent it from being 
independent?
    So, these are the two realities. And my view, therefore, is 
this, that if we are to succeed in achieving this two-state 
solution, it's true that we have to negotiate these difficult 
and complex issues, if you like, from the top down. But, we 
also have to deal with the on-the-ground problems from the 
bottom up. So, what I see is a simultaneous process, where we 
try and negotiate from the top down with a credible political 
negotiation, but, at the same time, we make the changes 
necessary to meet the Israeli security concern and the 
Palestinian concern as to whether they will get the freedom to 
run their own territory.
    Now, what does that, therefore, mean? And as has been 
rightly pointed out, my office works specifically on economic 
development on the Palestinian side, and also capacity-building 
for them. What this means, first of all, obviously, is a proper 
political negotiation, the declared and clear and credible 
objective of ending up with two states: a state of Israel, a 
state of Palestine. Second, however, we need economic 
development that really starts to change the perception of the 
Palestinians that they are going to have the run of their 
territory on the West Bank and they'll be able to make an 
economic future for themselves, with rising living standards 
and prosperity. So, we are working on a series of measures--
industrial parks, both up in the north there, up at the 
Palestinian Territory on the West Bank, down in the south, near 
Hebron, in and around Jericho, in the Jordan Valley, and also, 
there are housing projects near Ramallah.
    Tourism is a major area of potential activity for the 
Palestinians. The numbers of tourists actually in Bethlehem in 
the last year have tripled. Hotel occupancy, when I first went 
to Bethlehem, was about 10 percent, 18 months ago; it's now 
around about 70 or 80 percent. I mean, there are some signs of 
change and improvement. But, basically, this is an area where 
there should be fantastic opportunities for the tourist 
industry to develop.
    Then, of course, as part of the economic development, you 
need--as well as the major economic projects--you need the 
gradual step-by-step lifting of the access-and-movement 
restrictions. Some of those, around Nablus and around Hebron, 
have been eased in recent times, but we need to go much further 
so that the Palestinian industry is able to move around the 
territory, import and export its goods.
    And then, of course, we have the issues to do with Area C 
that I say is 60 percent of the territory, and where the 
Palestinians, at the moment, find it very difficult to develop 
their land properly.
    So, alongside the political negotiation should come the 
measures that help the Palestinians gain control of their own 
territory. However, that has to come alongside the measures to 
improve the Palestinian security capacity and their capability, 
showing and demonstrating their capability to run their state 
properly. Here is where the work that General Dayton has done 
to support Prime Minister Fayyad has been immensely important. 
There are forces that have been trained in Jordan that have 
come back and are now working in the Palestinian Territory, and 
that is changing, significantly and dramatically, the capacity 
of the Palestinians to run their own security affairs. However, 
security isn't just about force, it's about courts and prisons 
and the judicial system and prosecution, and there is a whole 
series of proposals there that the European Union has put 
together on the rule of law, which, again, we can support. And, 
in combination with the measures that General Dayton is taking, 
and, of course, under the leadership of Prime Minister Fayyad, 
you can start to see how, over time, we can create a viable 
Palestinian security capability. If that happens, and as it 
happens, then the Israeli security concern is diminished.
    Now, one final point I would make by way of introduction. 
All of this has largely been focused on the West Bank, and 
that's for very obvious reasons. But, one thing I am absolutely 
sure of is that, for the Palestinians, the only state that is 
acceptable is a state that comprises West Bank and Gaza. And we 
know what the problem has been in Gaza, with the takeover by 
Hamas. Nonetheless, I believe it is important, particularly 
after the recent operation and conflict in Gaza, that we 
demonstrate that we are doing everything we can to meet the 
genuine humanitarian concerns of the people in Gaza, that we 
are, for example, allowing their housing and their 
infrastructure to be repaired, and that we are showing to the 
people in Gaza, not all of whom, by any means, are supporters 
of Hamas, that there is a prospect that there is some hope, 
that potentially, if we can get things really moving on this 
part of the West Bank, then the pressure will come from within 
Gaza to join the train of moderation, if you like, and 
modernization that we hope the West Bank can become, and make 
sure that we have one unified process of peace leading to that 
two-state solution.
    But, it's important, in my view, that we have a strategy 
toward Gaza that helps the people and isolates the extremists, 
and not the other way around.
    So, that, in summary, is what I would say by way of an 
opening statement. I think this is, as you rightly pointed out, 
Mr. Chairman, a moment of opportunity. I think it's a moment of 
decision. I think, in some sense, this is a moment of truth, 
actually, as to whether we, all of us--the international 
community, Palestinians, Israelis--are prepared to do what is 
necessary to realize the objective we say is our stated 
objective for the future. I believe it is possible. I don't 
suppose--you mentioned my old times doing question-time period 
in the House of Commons--I don't suppose you could do that for 
10 years and not--and survive it without being an optimist, 
so----
    [Laughter.]
    Prime Minister Blair [continuing]. I am, by nature, an 
optimist, and----
    The Chairman. Either that or a masochist.
    Prime Minister Blair. Yes. [Laughter.]
    Well, and sometimes the two actually go in combination. 
[Laughter.]
    But, it does occasionally challenge even my deeply 
ingrained optimism, this situation. But, on the other hand, to 
return to what the chairman said--Senator Kerry said right at 
the very outset, there isn't, in my view, anything more 
important, in terms of the wider security of this region of the 
world, than making sure we have progress on this issue. And 
that's why, however challenging it may be, the challenge, and 
overcoming it, is worth it.
    [The prepared statement of Prime Minister Blair follows:]

Prepared Statement of Tony Blair, Quartet Representative, Former Prime 
         Minister of the United Kingdom, London, United Kingdom

    There is no workable alternative to the two-state solution. 
Politics, geography, and demography all point in that direction.
    The political negotiation for a two-state solution has a clear and 
long trodden path to it. The critical issues are well known: In 
particular, territory, including the role of land swaps; Jerusalem; 
refugees; security; and water. These issues are inevitably fraught and 
complex; but there are solutions to all of them, many of which have 
been canvassed over the years.
    The international and regional politics are better placed than ever 
to advance such a solution. The Arab Peace Initiative is an important 
recognition by the Arab world that its best interests lie in a 
Palestinian state created alongside a secure state of Israel. The 
United States, Russia, and European Union are all committed to such a 
solution.
    A majority of the people both in the Palestinian territories and 
Israel, remain in favour of the two-state solution, in principle. But, 
in practice, they doubt it can happen.
    The issue is therefore how to restore credibility and conviction to 
the essential vision.
    The key to doing this--apart from a determined focus by the U.S. 
administration and international community, which is happening--is to 
understand the ``reality on the ground'' issue that dominates the 
thinking of both the Israelis and Palestinians.
    Put simply, Israel will not agree to the creation of a Palestinian 
state unless it is sure of the nature of that state. It must know that 
the state will be a secure, stable, and well governed neighbour. Their 
``reality on the ground'' concern is not simply with the form of the 
Palestinian state, but with its content.
    For their part, the Palestinians see no purpose in agreeing a 
political solution, unless it is clear that such a solution means 
genuine statehood; i.e., that they will have full control over and be 
able to govern effectively and independently, the territory of that 
state. Their ``reality on the ground'' concern is that they will be 
forced to make concessions in defining the terms of statehood, but 
meanwhile the facts of occupation--movement restrictions, permits, 
Israeli incursions, settlements and outposts--will not change.
    To make the agreed vision credible, therefore, the negotiation 
itself must be credible and the actions on the ground must reinforce 
and not contradict it.
    It follows from this, that a Palestinian state has to be, 
simultaneously, negotiated from the top down and built from the bottom 
up.
    The Quartet is the international community's instrument of ensuring 
that the leading nations stay on the same course, to the same end. The 
Office of the Quartet Representative (OQR), which I head, has a 
specific mandate to help develop the Palestinian economy and help build 
the capacity of institutions of the Palestinian Authority. Naturally 
that involves a close interaction with the Israeli Government and an 
integration between this work and the wider political process. To that 
end we cochaired the Paris Conference of December 2007 which resulted 
in $5.6bn of support for the Palestinian Authority and assisted the 
Palestinian Authority in producing the first comprehensive Palestinian 
reform and development plan, under the leadership of PM Salam Fayyad.
    Since that time, we have been working to help put that plan into 
effect, to create the conditions for economic growth and to ensure that 
as Palestinian capacity, and particularly security capability, 
improves, so the restrictions on the West Bank can be eased and 
measures to stimulate the economy be taken. This has involved actions 
on easing movement restrictions, for example around the northern part 
of the West Bank, industrial parks, housing projects, tourism and 
infrastructure including in Gaza.
    After a prolonged period of political inertia--the result of a 
combination of factors, including Israeli elections, transition in the 
United States and issues around Palestinian Unity, there is now the 
chance to reinvigorate the search for peace and move forward.
    This will involve addressing three questions. First there must be a 
clear and credible political negotiation for the two-state solution. 
Senator Mitchell is absolutely right to underline that this cannot be 
more ``process''; there has to be a coherent plan to conclude it 
successfully. For President Abbas, this is crucial. Second, there has 
to be a programme of major, transformative change on the West Bank, to 
give the Palestinians real hope that, as their capability to run their 
territory improves and PM Fayyad's plan is implemented, so the 
Palestinians will be given proper control over the land in which they 
live. Third, the security concerns of Israel must be thoroughly, 
verifiably and comprehensively allayed by an agreed programme for 
reform of the Palestinian security sector and the rule of law. 
Throughout the obligations of both parties set out in the roadmap must 
be adhered to.
    In respect of the economy and development on the West Bank, the OQR 
has proposals across a range of different areas, including major 
economic projects involving industry, agriculture, housing and tourism; 
lifting access and movement restrictions; investments in 
infrastructure; changing the system of development in Area C which is 
60 percent of the Palestinian territory; halting demolitions; and 
budget support for the Palestinian Authority. Such a programme requires 
the active support and engagement of the Government of Israel. Without 
recognition that such a programme is in the strategic interests of 
Israel and concerted and concentrated efforts to help execute it, 
change in the West Bank will continue to be too slow, too grudging, and 
too piecemeal to be capable of providing the right context for the 
politics to succeed. Such a programme must be consistent with Israel's 
security but must also recognise the significant increase already made 
in Palestinian security capacity.
    In respect of that Palestinian capacity, we need to complement the 
work done by General Dayton and the U.S. Security Coordinator team, 
(which has seen a dramatic improvement in Palestinian security force 
capability), with detailed work on the other aspects of the rule of 
law--prisons, courts, judiciary, prosecution and all the effective 
panoply of a proper functioning criminal justice system, in which the 
EU plays a major role. We also need to ensure that in other areas of 
the Palestinian Authority, like health, education, and social services, 
Palestinian Authority institution-building continues with international 
support.
    Such a programme would change the nature and reality of life on the 
West Bank. The people of Gaza, however, cannot and should not, be set 
to one side. The OQR has a responsibility to help Gaza also, but the 
ability to do so has obviously been severely restricted by the 
continuing security issue there, following the unlawful coup by Hamas. 
Gazans, too, have a right to be part of the two-state solution. For the 
moment, it appears hard to resolve the issues around Palestinian unity 
on a basis compatible with the outcome agreed by the international 
community: A peaceful negotiation leading to a state of Palestine side 
by side with the state of Israel. The politics therefore are presently 
blocked. But there is still much that can be and should be done to 
improve the conditions for the ordinary people of Gaza, the majority of 
whom are under the age of 18. This should include: Full humanitarian 
help for the population; repair of housing and infrastructure damaged 
in the conflict; and allowing the import and export of goods and 
services, that do not have adverse security implications. This would 
able us to help the people but not the extremists, who continue to fire 
rockets at Israeli citizens.
    The challenges are self-evident; the opportunities for peace less 
so. Yet peace could be achieved with the right combination of 
determined focus, political will and the patient, sometimes painful but 
utterly essential work on the ground, so that we restore credibility to 
a vision that is actually shared and endorsed by the overwhelming 
majority of people, in Israel, in Palestine, and the international 
community. The opportunity is there. But it won't remain if not seized. 
As President Obama has recognised, this is the right time to seize it.

    The Chairman. Mr. Prime Minister, thank you. That's a 
terrific opening statement, and we will place your full 
comments in the record as if read in full.
    If I could pick up where you just left off and ask if you 
might broaden that a little bit, one of the things I've found 
in the recent journeys to Pakistan, Afghanistan, Sudan, et 
cetera, is the degree to which the extremism, the 
radicalization and religious extremism that we see translated 
into violence in so many places, finds an organizing principle 
around this dilemma of Israel/Palestine. It seems to me that 
Yemen, which is now becoming a site of increased al-Qaeda 
activity, the problems of Somalia, and so forth, this is just a 
repeated refrain that I pick up everywhere. And I wonder if you 
share that sense of the conglomerate of this impact and what 
you see are the implications of it.
    Prime Minister Blair. I mean, for myself, I entirely share 
that perspective. I think--here's the important thing. The 
Israel-Palestine conflict did not create this extremism we see. 
It's not the author of it. And let's also be clear that we can 
resolve the Israel-Palestine question, and this extremism will 
still exist. That is true.
    However, if defeating this extremism is about mounting an 
alliance of sensible, modern, moderate people who believe in 
peaceful coexistence, if that is at the heart of it, then 
resolving this issue is a major, major part of empowering that 
alliance and allowing it to fulfill its objective.
    And therefore, my view would be that, if you can resolve 
this question--if we can resolve this question--actually, if we 
can even put it, right at this moment, on a path, credibly, to 
resolution, then I think it would do just an extraordinary 
amount to heal some of the problems of that region and the 
wider world, and it would take out, from the grasp of the 
extremists, a major weapon that they use, or a major recruiting 
instrument that they use.
    Now, all of that has to be done--and it's important to say 
this, because Israelis sometimes wonder that, in our 
desperation to make this thing work, we then sacrifice their 
security. I think certainly I, and I'm sure the members here, 
come to this from a very fixed position, which is that Israel's 
security is also our security, and that we do not take risks 
with it. I think I would like to turn that on its head and say 
that, actually, the long-term security, not just for ourselves, 
but of the state of Israel, lies in the resolution of this 
issue on fair, just, and secure terms.
    The Chairman. And it is apparent also to many of the people 
who have been following this issue for a long time, that the 
window of opportunity for a two-state solution is closing--
demographics, the problem of how you maintain a Jewish state 
with an increasing population of citizens who might have a 
different point of view and vote differently. All of these 
larger issues, together with the impatience and the aspirations 
that have not been met, on all sides, are increasingly 
hardening. And I wonder if you'd comment on that.
    Prime Minister Blair. I mean, you always--you've always got 
to be cautious about saying, ``Look, this is the last moment 
and, you know, this is the final push,'' and so on and so 
forth, because sometimes those phrases are too easy to use and 
can be overworked. But, I--I mean, I agree; in essence, I 
think, that--well, what's the reality? The reality is, we have 
a new administration that is coming in, from the outset, and 
said, ``This is a priority for us.'' You have the Arab Peace 
Initiative, which signals that the Arab world is prepared to 
recognize Israel and to be part of this process. You have a 
basically unified international community position.
    Now, I think, with all those things in place, if we cannot 
move this forward now, I think the risk is that there will be 
many people within Israel and within the Palestinian 
Territories who will conclude that it can't be moved forward. 
That, I think, is the risk. And then, you know, as I always say 
to people, the alternative to a two-state solution is a one-
state solution, but then there's going to be a big fight. So, 
I--I mean, as I say, I hesitate often about saying, ``This is 
the final opportunity,'' but I think I would say the--up until 
the end of this year, there is a critical window of 
opportunity, and it would be sensible for us to pass through 
it.
    The Chairman. Now, speaking to that window of opportunity, 
you mentioned in your comments about the legitimacy of the 
expectations and fears on both sides. And I wonder if you could 
set out to us your judgment about what steps on each side that 
could be taken without an agreement, without even a process, as 
confidence-building steps that could help set the stage for the 
process. What do you see as the most important measures both 
sides could take in order to move the other side to have a 
sense of confidence about the possibilities of the future.
    Prime Minister Blair. I think President Obama said recently 
in his discussions with King Abdullah of Jordan, that he would 
be looking for gestures and actions consistent with finding a 
way through to peace that should be taken by the parties.
    Well, what would those be? I think they're actually fairly 
easy to describe, in a way. I mean, they may be tougher to do, 
but they're easy to describe. I mean, one thing that is very 
obvious is, for the Palestinians, that security capacity that 
they have been building up, they've got to continue to build 
up; they've got to take the decisions to start implementing the 
rule-of-law changes that are necessary to give Israel 
confidence a Palestinian state will be properly run. I think 
our big benefit there is that Prime Minister Fayyad and 
President Abbas are determined to do this, and they are being 
supported by the international community in achieving it.
    I think, for Israel, the confidence-building measures it 
can take are also, again, reasonably clear. First of all, it's 
important that settlement activity does not put at risk the 
concept and viability of the Palestinian state.
    It's important just to describe what the issue is for many 
Palestinians, here. Their worry is that what happens is that in 
and around the West Bank you get, obviously, settlements that 
now come out of fairway into the Palestinian Territory, past 
the 67 borders, and, you know, those are of significance, that 
is absolutely true. But, you also get settlements along the 
Jordan Valley, obviously in and around this area, down in 
Hebron. And just to give you--and as I saw, myself, in and 
around Bethlehem just recently--the concern of the Palestinians 
is this, that what will happen is that, even though there is a 
political process going on, things happen on the ground that 
contradict that political process. That's their worry. And I 
saw for myself, when I was down in Hebron a short time ago--
which is why I think this Area C business is also very 
important--there were the Palestinians in a village that--they 
found it very difficult to get permits, because it's under 
Israeli-administered control, to develop their own land. And 
yet, up in the hills, they could see settlements and outposts 
who are obviously going to pose a real threat to a Palestinian 
state, as they saw it. Now, that is where--if that activity 
continues and intensifies, it becomes very difficult for the 
Palestinians to gain confidence. So, that's something that 
Israel can do.
    The second thing is that what I've found in the work that 
I've done--in the last few months, obviously, there has been an 
unsettled situation in Israeli politics; you know, there's been 
a transition here; the Palestinian unity talks have been going 
on--it's not surprising it's been hard to get things done. But, 
now we have a settled Israeli Government, the new 
administration has got its feet on the table here, and you have 
Prime Minister Fayyad in position.
    There are steps that could be taken on the economic side 
that are not hugely complicated, but will make a big 
difference. Access-and-movement restrictions that can allow the 
flow of traffic to happen far more easily, and greater trade. 
These industrial parks, not merely accepted, but driven forward 
with some, you know, real passion and determination.
    If you take--down in the Dead Sea area, down here, the 
Palestinians, at the moment, a lot of the time find it hard to 
get access to the Dead Sea. But, actually, this is--as it is on 
the Jordan side, on this side you've got, obviously, major 
tourist development around the Dead Sea--if we were able to get 
major tourist development also down here on the Palestinian 
side, which is actually part of the Bethlehem governorate, I 
mean, it would make a huge difference. You'd bring jobs, you'd 
bring hope, and you'd bring something else; the Palestinians 
would think, ``Well, if we're being allowed to develop this 
area, maybe it's credible to think that it--sometime this could 
form part of a state.''
    So, what I would say is that there are a clutch of measures 
on both sides that could be taken, in advance of a political 
negotiation, that would build credibility.
    The Chairman. Thank you very much.
    Senator Lugar.
    Senator Lugar. Prime Minister Blair, press accounts lead us 
to believe--we will know for certain as distinguished Israeli 
leaders arrive in Washington in the coming weeks--that they 
want to talk foremost about Iran and are seeking to resolve 
that situation. They don't object to talking about what we're 
talking about today, but you have the impression that their 
priorities are quite different than our own. And, furthermore, 
given the timelines you've been talking about today, the 
situation with regard to Iran does not necessarily have the 
same sort of timeline attached to it unless precipitous 
military action were to be taken by somebody in the world that 
would then create a very different kind of Middle East, both 
for the United States, for Great Britain, for the Arab 
countries, for everybody.
    The reason I raise the subject is that I know that our 
administration is wrestling with appropriate responses that 
show our support of Israel, but, likewise, indicate that 
military action would have dramatic and perhaps catastrophic 
results for many countries that may be involved.
    Now, if this were simply something that is likely to go 
away rapidly, that would be one thing. But it may not. So, even 
if we get into a diplomatic round, or two or three, with Iran 
and the Israelis and others, and this drags on for some time, 
the reaction in the settlements that you and the chairman have 
been talking about here is likely to be substantial.
    Now, that doesn't mean we shouldn't progress, but let's 
take, as one element of the discussion, the settlements, rather 
large settlements of Israelis in parts of what could be 
Palestinian Territory. In the past, Israeli governments have 
found it very difficult to bring about movement, even change of 
opinion, of many of the settlers. As a matter of fact, 
controversies have occurred in which some Israelis have felt 
they ought to have the right for more settlements rather than 
fewer. They argue that, as a matter of fact, people come from 
abroad, and wish to move to Israel, need some room. And there 
still is this kind of evangelical fervor which permeates.
    But, how, as a practical matter do you propose the 
settlement issue be resolved? Does the Israeli Government 
finally have to say, first of all, ``No more settlements,'' and 
second, ``Those of you who are there now, we'll help you, offer 
rehab funds, but you've got to move. You physically have to 
leave''?
    Now, such a policy shift would likely only come from a 
different kind of government, I think, than the coalition there 
now, and it's not really clear how soon such a government might 
emerge. But, as a practical matter, until it does, it's very 
likely that this feeling, as you said, of some on the 
mountaintops and some in the valleys with a strong sense of 
their rights in this regard is going to persist.
    And this gets to the fundamental question, the United 
States has felt for a long time the two-state settlement is the 
best idea. We could be faulted for the timing of our 
enthusiasms and enterprises. Perhaps the Annapolis Conference 
was too late in the administration, perhaps other attempts were 
too early. But, clearly the Obama administration sort of starts 
out at the beginning, with 4 years ahead, with strong feelings 
toward achieving a resolution. And yet, as a practical matter, 
the settlement question has to be addressed at some point, 
quite apart from the security challenges that you've described, 
some economic rehabilitation, maybe, as you say, development of 
tourism might be helpful.
    We also know that at some point Gaza and its Hamas 
leadership has to come into some relationship with the rest of 
the Palestinians. And this is not only daunting, but, for 
practical politicians, they might very well join our Israeli 
friends who are about to come and visit with us in Washington 
and likely as not say, ``This is way on down the line, in the 
fullness of time.''
    Now you and the chairman have said, ``Well, we have the 
months of this year.'' And maybe you could give yourself a 
little leeway, a few months in the next year, but there is no 
resolution in sight, despite the idealism of King Abdullah, and 
a seeming unanimous sentiment among Arab leaders who have said, 
``We really need to see this happen. We've got to live here, 
too.''
    Try to sort this out in a way that I'm more optimistic. 
[Laughter.]
    Prime Minister Blair. Right. I mean, first of all, I think, 
Senator, that the--I mean, I'm not suggesting, by the end of 
this year, you can solve this problem. What I am suggesting is 
that, by the end of the year, we've got to be on a path that 
credibly could lead to it being resolved. And I'll come to the 
question of Iran in a moment, but in respect of settlements, I 
mean, the very reason why the roadmap talks about a freeze on 
settlements, the very reason that people come back to this 
continually is just for one basic, simple reason, that in the 
short term, people want nothing to happen that prejudices or 
contradicts the very process of peace that we're trying to 
achieve.
    Now, I think it is possible that we can find a short-term 
way of ensuring that that doesn't happen. But, obviously, 
that's one challenge.
    I think, then, medium term and longer term, obviously, as 
it becomes clearer what the shape of the Palestinian state will 
be, then, frankly, we are in a position where we can take a 
more definitive approach on some of these questions, because 
there will be areas that it's clear will be part of the land-
swap deal, and there will be areas that will be clear that the 
settlements will have to move. And I think, at that point, it 
is far easier for both sides to start, if you like, 
acclimatizing their people to the compromises and changes that 
are going to be necessary.
    But, I think, in the short term, and certainly for the 
coming months, what is important is that actions aren't taken 
that removes the possibility of that state being viable. So, 
for example, you will have heard a lot of the controversy 
recently over--I think it was round about there--the E1 
settlement or the E1, rather--the E1 strip of land and the 
concern of the Palestinians if there is settlement activity 
there. I mean, I think that is an important question. So, there 
are various--very specific practical issues that arise. House 
demolitions would be another. Land appropriations, another. So, 
I think there are specific things that we can talk about in the 
short term in advance of that longer term question.
    I think, in respect to the issue to do with Iran, what I 
would say is this, that it--the threat posed by Iran is real. 
There's no doubt about that. And it is a real threat, not just 
to Israel, but to the wider region. Where I disagree with 
people is to say, ``Therefore, let us focus on that and not 
focus on the Palestinian question,'' because, in my view, what 
is necessary, if we are to have our best chance, hopefully, of 
persuading Iran that they cannot continue on their present 
path, then we need the most support, the broadest alliance 
possible, in order to do that. So, I would say that is where 
the issue of--how we build a credible negotiation to a two-
state solution is actually an important part of dealing with 
that issue, not a separate issue altogether. And I think, you 
know, that is the linkage that many people in the region 
understand. And so, I hope that what we're able to do is to 
demonstrate, in reasonably short time, that we are, indeed, 
united, with a common determination, to find a way to the two-
state solution. Yes, it may take time. Yes, it is true we have 
to build it from the bottom up as well as negotiate it from the 
top down, but we are determined to do it. And that 
determination, and the demonstration of that determination, is, 
in my view, a very important signal to those that might want to 
use this dispute for their own ends in stirring up trouble 
within the Palestinian Authority, elsewhere in the region.
    Senator Lugar. Well, Mr. Prime Minister, what do you say to 
those who say to the United States, ``It's all well and good 
for you to be talking about the two parties negotiating step by 
step--but, in fact, this is not going to happen unless, through 
very strong diplomacy, the United States imposes a solution 
that would be welcomed by three-quarters of both groups, who 
would say that''--essentially, ``Thank goodness the job got 
done,'' quite apart from the rest of the Arab world. Now, from 
our standpoint, we would say, ``Well, that's not the best idea. 
The people ought to be working it out. They ought to be 
negotiating.'' Well, but they would say, ``We've been there, 
done that, and this is not in the cards.'' What do you say 
about this strong imposition?
    Prime Minister Blair. One of the things I learned by the 
Northern Ireland process was this, because people often used to 
say to me, ``Just go and put it down and tell them that's 
what's happening.'' And I used to say, ``I'm afraid it doesn't 
work quite like that.'' So, I think, particularly when we are 
at the beginning, if you like, of a new relationship between a 
new administration, a new Israeli Government, Palestinian 
Authority, I think what is important is to try and find an 
agreed way forward. And that is the first step for us to 
investigate. And I think the important thing will be that there 
is both a commitment to the two-state solution, in principle, 
and then, underneath that commitment, on the politics, on the 
economics, on the security, underneath those headlines, there 
are credible demonstrations, on the ground, of our 
determination to get to that two-state solution. Now, that is 
where at least I would start.
    Senator Lugar. Thank you, sir.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Lugar.
    Senator Boxer.
    Senator Boxer. Thank you very much, Mr. Chairman.
    Mr. Blair, your work, not only on this critical issue of 
the Palestinian-Israeli conflict, but also on global warming, 
is so important. I really want to thank you very much for your 
dedication on these two critical issues, because this portfolio 
you carry is really extraordinary. And many of us on this 
committee are working, with our chairman's incredible 
leadership, I might say, on both of these issues. So, hopefully 
we'll figure it out, because, many ways, humankind, you know, 
is looking to us, and this is our moment. So, I really 
appreciate your optimism on this, because we must be 
optimistic. We can solve these problems. And we have to--we 
don't have a choice; we have to--because there's a window, on 
both these issues, and the window's closing.
    Mr. Blair, in a speech you delivered last April to the 
Atlantic Council, you talked about the threat that the West 
faces from Islamic extremism. Specifically, this is what you 
said, ``Out in the Middle East, it is there in the activities 
of Hezbollah in Lebanon, or Hamas in Palestine, it is played 
out in the street of Arab opinion every day. In the Middle 
East, the ideology that drives extremism is not abating--an 
alarming number of people buy the view that Islam is under 
attack from the West. The leaders to support are those like 
Nasrallah and Ahmadinejad, who are perceived to take on the 
West, and there is a contrast between governments and their 
people.''
    So, I just have a couple of questions to ask you that I'm 
taking from that speech, because I think it'll help us. So, 
it's been a little more than a year after that speech. Is your 
opinion still the same? And, to quote you again, is the 
``ideology that drives extremism,'' abating at all, in your 
opinion? And last, how is the new United States administration 
perceived, particularly as President Obama prepares to deliver 
a major speech in Egypt early next month?
    Prime Minister Blair. Thank you, Senator. And I think I 
would say my opinion is still the same. I would say that--can 
almost answer the last two questions together, in the sense 
that I would say that the abatement of that extremism could 
happen, with the advent of President Obama, what he's set out 
for people and the engagement he's offered to the Muslim world. 
I think it's created a lot of interest and expectation amongst 
our friends. It's created concern amongst our enemies, which is 
the right balance. And it's probably making some people in the 
middle ground think.
    So, I think this--that's why I say I think this is a moment 
of opportunity.
    The tough thing is this, though, that, in the end, as 
actually with so many issues, what the President requires are 
people that are willing when he reaches his hand out to them, 
to reach back and not merely to take his hand and say, ``Well, 
that's really good of you.'' So, what we need--if we do get 
this process going, we also need countries out in the region to 
be reacting to this overture, to be reacting to the progress, 
and to be giving, as well as merely receiving.
    Senator Boxer. If I could follow up with that, since you 
opened the door to other countries, I want to ask you about the 
tough issue of Iran and its role in the Israeli-Palestinian 
conflict. I have here an Associated Press article that I'd ask 
unanimous consent, Mr. Chairman, to place in the record.
    The Chairman. Without objection.
    [The article referred to follows:]

                [From the Associated Press, May 5, 2009]

                Iran, Syria Defend Palestinian Militancy

      ahmadinejad meets with hamas, hezbollah in visit to damascus
    Damascus, Syria.--The leaders of Iran and Syria reaffirmed their 
support for ``Palestinian resistance'' on Tuesday, a defiant message to 
the U.S. and its Mideast allies who are uneasy over Washington's 
efforts to forge closer ties with the hard-line government in Tehran.
    Iranian President Mahmoud Ahmadinejad also met with the chiefs of 
Hamas and other Damascus-based Palestinian radical groups during his 
visit to Syria. Iran is a strong supporter of Islamic militants in the 
region, including Hamas and Lebanon's Hezbollah.
    Ahmadinejad's visit to Syria comes as the U.S. is trying to improve 
strained ties with the two longtime adversaries. Two U.S. envoys, 
Jeffrey Feltman and Daniel Shapiro, left Washington on Tuesday for 
Syria for their second visit since March to explore ways to ease 
tensions between the United States and Syria, the State Department 
said. The envoys would be in Damascus on Thursday, Syria's ambassador 
to Washington, Imad Mustapha, told The Associated Press.
    But Ahmadinejad and his top Arab ally Syrian President Bashar Assad 
made little mention of American outreach as they sat together at a 
press conference following their talks.
    The hard-line Iranian leader said the two countries' alliance was 
achieving ``victories'' in preventing ``the big powers' offensive to 
dominate the region.''
                      ``resistance will continue''
    ``Syria and Iran have been from the very beginning united and in 
agreement to stand on the side of the Palestinian resistance,'' 
Ahmadinejad said. ``They will continue to do so. We see that the 
resistance will continue until all occupied territories are 
liberated.''
    Ahmadinejad later held talks with Hamas' political leader Khaled 
Mashaal and the head of the smaller militant Islamic Jihad. The Iranian 
leader ``affirmed Iran's support for the Palestinian people and their 
resistance,'' said Ziad Nakhaleh, a senior Islamic Jihad official.
    Ahmadinejad and other Iranian officials have been sending mixed 
messages in response to President Barack Obama's calls for dialogue--at 
times taking a moderate tone, only to fall back on a tough line.
    U.S. Defense Secretary Robert Gates, who is visiting the Middle 
East, said Tuesday the U.S. is still waiting to see how the Iranians 
respond to Obama's outreach, but so far the rhetoric from Ahmadinejad 
has been ``not very encouraging.''
    Gates sought to reassure U.S. Arab allies, who are worried that 
their rival Iran will be boosted by a U.S. dialogue. He also said a 
``grand bargain'' between Tehran and Washington was unlikely.
    There has been widespread speculation in the Middle East that the 
Obama administration would try to forge a ``grand bargain'' with Iran, 
in which Washington would press Israel for concessions in the peace 
process with the Palestinians in exchange for Tehran rolling back its 
nuclear program.
    ``The United States will be very open and transparent about these 
contacts, and we will keep our friends informed of what is going on so 
nobody gets surprised,'' Gates said at a news conference in Egypt 
before heading to the Saudi capital.
                     worry about iranian influence
    The U.S. overtures to Iran are raising concerns among its Arab 
allies like Egypt and Saudi Arabia, as well as Israel. They fear Iran 
is trying to spread its influence across the Middle East, with its 
support of Hamas, Hezbollah and other militant groups.
    Arab diplomats who met in Cairo Tuesday with the State Department's 
new special envoy for the Persian Gulf, Dennis Ross, said they voiced 
those concerns.
    ``Some of what he heard was more than just grievances. They warned 
that Washington should be careful not to be so mild to Iran,'' said one 
diplomat who attended one of these encounters. He spoke on condition of 
anonymity because of the sensitivity of the subject.
    Egyptian Foreign Minister Ahmed Aboul-Gheit expressed similar 
concerns on Monday.
    ``Iran's behavior in the region is negative in many aspects and 
does not help in advancing security, stability and peace,'' the state-
run Middle East News Agency quoted Aboul Gheit as telling Ross.
    Israeli Prime Minister Benjamin Netanyahu is due to meet Obama 
later this month at the White House for their first meeting since each 
leader took office earlier this year. Netanyahu is expected to come 
under pressure to publicly accept the principle of a Palestinian state, 
a step he has avoided amid U.S. attempts to revive the peace process.
    Netanyahu is expected in turn to push for a tough U.S. stance on 
Iran. Israel argues that progress in peace with the Palestinians can't 
happen unless Iran is reined in.
    Hamas' top political leader Khaled Mashaal, who is based in Syria, 
was quoted by the New York Times Tuesday as saying that Hamas is 
willing to support a two-state solution. But he also said Hamas would 
not renounce violence against Israel or recognize the Jewish state.

    Senator Boxer. And it's entitled ``Iran-Syria Defend 
Palestinian Militancy.'' I don't know if you've seen it, but 
I'll get it to you. The article talks about a recent trip to 
Syria made by Iranian President Mahmoud Ahmadinejad. And 
according to the article, Ahmadinejad met with the chief of 
Hamas and other Palestinian radical groups based in the country 
and ``affirmed Iran's support for the Palestinian people and 
the resistance.'' He also praised Iran's alliance--and this is 
troubling to me--with Syrian President Assad, saying that, 
``The two countries' alliance'' was achieving ``victories in 
preventing the big powers''--and we know who that is--
``offensive''--and we know that is--``to dominate the region.'' 
Well obviously you're trying to help, and I worry about that 
kind of language.
    So, what steps can the United States take to curtail Iran's 
involvement with Hamas, particularly as the Obama 
administration looks to isolate Hamas? And what support do you 
think is Iran providing to Hamas, in terms of weapons?
    Prime Minister Blair. First of all, the strategy of 
engaging with Iran, I think, is an entirely sensible strategy. 
We are saying to Iran, ``If you want to take your place, you 
know, as a proud and ancient civilization, as a country that is 
a powerful country--if you want to take your place in the 
community of nations, the door is open to you.'' And that's 
important to say, and to mean, incidentally. The message to 
Iran, however, I think, is equally important, and has to be 
very clear. It cannot have nuclear weapons capability, it must 
stop supporting terrorism.
    I think it's important for the Iranian regime to know that 
we are--our engagement is genuine and the clarity of our 
message is genuine, as well. And that is in, I think the right 
balance. And the way of reducing their influence within the 
region is to show precisely that we want peace. It's to take 
away--and this is the importance of moving forward with the 
Palestinian issues--to take away a cause that they abuse, 
frankly, in order to gain support for their ends.
    And the Iranian relationship with Hamas--I mean, I think 
it's fairly clear, they both fund and they arm them, as they do 
other groups within the region. My response to that, however, 
is that the best way of pushing them back is to show, in this 
case, the Palestinian people there is a moderate and modern way 
forward, where we live together in peace.
    So, I think that is--you know, that is why this next period 
of time is very important, because these issues do interrelate 
in a very profound way. So, you know, equally, as I would say 
to people, you cannot say, ``Let's concentrate on Iran and 
forget about Palestine,'' I would say it's equally true you 
shouldn't concentrate on Palestine and forget about Iran. To 
me, this is one picture, with many different parts of that 
picture. And I think one of the benefits of the approach we've 
got at the moment is that we see it as one.
    And I think, for people within the world of Islam who are 
trying to make the right type of change, you know, they want to 
be able to stand up and say, ``We're an alliance with America 
to achieve an end that's just and is peaceful.'' Now, of course 
that's got to be done on the right terms, but that's where they 
want to be, because they know, in the end, this extremism can 
only be defeated by them, and not by us, actually, or not 
defeated, in its final analysis. I mean, I think this 
extremism--sometimes I think it's more like, you know, maybe, 
revolutionary communism, in the sense that it doesn't 
necessarily have one command-and-control center and all the 
rest of it, but it's an ideology, and it gets adherence, and 
it's very adept, for example, at using the Internet and means 
of communication to pull people in. We've got to be providing, 
therefore, this strong momentum toward peaceful coexistence on 
the basis of just and evenhanded treatment of people that 
discomforts those extremists and helps defeat them within the 
culture of their own politics and their own countries.
    Senator Boxer. Thank you, Mr. Blair. I know we all wish you 
well and hope for some really great breakthroughs, despite all 
the problems that you come up against.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you very much, Senator Boxer, we 
appreciate it.
    Senator Corker.
    Senator Corker. Mr. Prime Minister, thank you for being 
back here again. I think you're one of those people that show 
us what great benefit those who leave public office can offer, 
and certainly you continue to do that on many, many fronts. And 
again, thank you for being here today.
    I was out for an Energy markup and understood there were 
some questions about the settlement issue, and I think you may 
have mentioned that that's something that we need to get to 
after some basic general understandings are agreed to. But, I 
guess I--that issue, to me, seems like one that, as it 
continues on a daily basis, indicates that there's not a 
seriousness toward working toward a two-state solution. It just 
seems to me to be a constant stick in the eye, if you will. And 
I'm just wondering if I'm seeing that in the wrong way. 
Certainly on my last visit there, it seemed to be that that was 
the case. We have a Prime Minister today that does not even 
acknowledge a two-state solution. And so, it seems to me that 
that is very much a centerpiece, and I'm just--certainly you're 
the person that's so involved in these negotiations and on the 
ground. Just as an educational piece to me, I'd like to 
understand how that can be left aside when it's such an 
irritant on a daily basis. And certainly we'd love any comments 
you might have about the current Prime Minister's position on a 
two-state solution, and how we actually see that, going 
forward, we can discuss that in a meaningful way when we have a 
leader who isn't even acknowledging that.
    Prime Minister Blair. Thank you. I mean, first of all, I 
think the settlement question has to be dealt with--I mean, 
immediately, as well as in the longer term. But, I think the 
most--the single thing that is most important immediately is 
that actions are not taken that prejudice the final outcome of 
the negotiated solution.
    So, I think there's a short-term question there, and then 
there's a longer term question, which is, once we know what the 
outlines of a Palestinian state would be, obviously that then 
has profound implications for what happens to the settlements.
    Now, I think, in respect of the Israeli Prime Minister, 
I've sat and talked with this--about this with him over a 
prolonged period of time. Even so, it's--I think it's for him 
to make his statement and position clear, rather than me. But, 
let me try and give you the optimist's view of where Prime 
Minister Netanyahu is.
    There are those that--in Israel, who are against the 
concept of a Palestinian state. Now, I happen to think they're 
a pretty small minority, actually, but there are people who 
would argue that.
    I think and believe that the Israeli Prime Minister's 
position is different; it is that he wants to be sure that that 
Palestinian state is consistent with his perception of Israel's 
security requirements. Now, I think if he is in that position, 
which is what I would call building the state from the bottom 
up, as well as negotiating it from the top down--if he is in 
that position, we can work with that. But, the test will be 
whether the actions, then, over the coming months, are 
consistent with that view.
    So, I hope very much that when he comes here, that it is 
clear he's prepared to work toward the same end as the rest of 
us, and that we are able, together with him, to work out a way, 
both of ensuring that, as the politics move forward, so there 
is the economic development, and there is the security-
building--the capacity-building on the Palestinian side that 
allows the Palestinians to believe he's serious about allowing 
them statehood, and allows the Israelis to believe that the 
Palestinians are serious about running an efficient and well-
ordered state.
    Now, that's--you know, I think--which is the right view of 
the Prime Minister's views, I think, will become apparent in 
the months to come. I hope I'm right.
    Senator Corker. Is there any sense that a cessation, a 
stopping of settlements for some period of time while the men 
who continue to prejudice the issues of boundaries and all of 
those kind of things as settlements continue? Any discussion 
about just stopping, as is, for some period of time?
    Prime Minister Blair. Yes, of course. And, I mean, that's 
exactly the issues that the roadmap examined. And, you know, 
you come back to the same thing, which is to make sure that 
there is not activity in respective settlements that then makes 
a Palestinian state either untenable or unviable. But, also--
and this is the other problem--I mean, if you get settlement 
expansion at the same time as you're negotiating over a two-
state solution, Palestinians then feel, ``Look, you're--you 
know, we're being made fools of here. You're saying you want a 
two-state solution, but you're taking actions that are 
inconsistent with it.'' That's why the issue is important.
    Now, as I say, I think and hope there are ways that we can 
ensure that nothing happens that prejudices the final outcome 
of a settlement and a negotiation around the two-state 
solution. I hope we can find those ways of doing it over the 
next few weeks. But, undoubtedly, you know, of course, the 
settlement issue will be very important.
    Senator Corker. So, since you're discussing this ground-up/
top-down simultaneous way of looking at this, you know, one of 
the major glaring problems from an economic standpoint, seems 
to me, the separation from Gaza and the West Bank, and it seems 
to me that for that truly to be a state that, today, is 
disconnected--I mean, what is the best on-the-ground solution 
for cross-country transit in that regard that doesn't create 
security issues for Israel? I mean, what are some of those 
ground-up solutions?
    Prime Minister Blair. Well, I think, you know, as you can 
see from the map, I mean, the distance is reasonably short 
between the West Bank and Gaza at the moment, but you can also 
see why Israel would be deeply concerned unless it was clear 
that both parts of the Palestinian state were going to be 
secure and properly run. Now, the reality is, at the moment, as 
we know, in respect of Gaza, we have a situation where, 
following the takeover by Hamas, there has been conflict, a 
miserable time for the people there, and a miserable time for 
the people in places like Sderot, who felt the impact of the 
rockets being fired from Gaza. So, what I would say to you is 
that, in the short and medium term, what is important is that 
we try and improve the lives of people in Gaza and we try and 
show to the people there that actually there is a way forward 
that will include them, that that way forward will only happen, 
in the end, if people are prepared to commit to a peaceful road 
to a two-state solution. So, that's the--you know, that's the 
difficulty that we have. But, in any event, we are in a far 
better position to show that to them if, on the West Bank, 
we're making real, tangible progress in improving the lives of 
people.
    Senator Corker. Any--I know you've laid out--I think, in 
the next 5 or 6 weeks, there are some tangible things that are 
going to occur on your end. Can you give us any sense of the 
speed at which you think things will be coming together, your 
thought about how quickly and how things are going to move 
along into the future as it relates to coming to an overall 
settlement?
    Prime Minister Blair. I think it's possible--I mean, 
certainly if we're talking about the things that would help on 
the Palestinian side--I think it is possible to see, reasonably 
quickly, changes that can be made in access and movement. There 
have been some easing of some of the restrictions, but there 
could be more done that allow people better access--I mean, I 
was pointing out earlier the access down there by the--to the 
Dead Sea, for example; access for people to actually get across 
and utilize their land in the Jordan Valley, some of the access 
for goods to get out in and around Bethlehem. You know, there 
are changes that could be made that would make a difference. We 
could get some of the blockages cleared on some of the major 
economic projects and have them agreed and underway. And, of 
course, if we got commitments on issues like settlements, not 
to do anything that prejudices the final outcome, then that, 
again, helps build confidence.
    I think, for the Palestinian side, it's fairly obvious, 
again, what they can do for the Israelis. What they can do is 
to make it clear that the process of reform in their security 
forces, in the rule of law, is going to continue, it's going to 
intensify, that they will--you know, that they will deal with 
what the Israeli problem is on the Palestinian side. And we've 
got to be honest about this. The Israeli problem is, they worry 
that if they get out of the West Bank, they will have a 
situation where there's a takeover by extremists.
    So, the Palestinians--we've got to acknowledge this is 
going to take place over time, and we've got to create the 
circumstances in which the Palestinians are also showing the 
Israelis that they are serious about getting that security 
capability so that, in the end, I mean, to put it in the--to 
put it in the--in crude terms--and I mean nothing other than 
just this simple analogy, by what I'm about to say--the 
Israelis need to know the West Bank will be run as, for 
example, Jordan runs its security, rather than like Gaza. It's 
as simple as that. And that's what they need to know.
    Senator Corker. Mr. Prime Minister, my time is up. I do 
want to say, with Senator Mitchell and yourself involved in 
creating a solution to this, I think we all are hopeful, 
because you are two of the most well-qualified people to do 
this that exist in the world. I wish you luck. I--the geography 
is such that--and the tensions are such that--it, no doubt, is 
going to take herculean efforts for all involved. And again, 
I'm thankful that you're involved in this, and appreciate you 
being here today.
    The Chairman. Thanks, Senator Corker.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman, for holding this 
hearing.
    Thank you, Mr. Blair, for testifying on this important 
issue.
    The last time this committee met to discuss the Middle East 
peace process, in September of last year, I expressed regret 
that the previous administration did not engage on this issue 
earlier. We did see some positive movement toward the end of 
the second term, which I was pleased about, but it obviously 
was not enough.
    Working to resolve conflicts and achieving a lasting peace 
in the Middle East is essential not only to the security of the 
Israelis and the Palestinians, but, of course, for the region 
as a whole. It is also in the national security interests of 
the United States. And there is a growing sense of urgency--
expressed most recently by King Abdullah of Jordan and 
Lieutenant General Dayton, among others--that now more than 
ever, renewed American leadership is needed to reinvigorate the 
peace process.
    I'm pleased that President Obama has recognized this 
urgency and made it a top priority since day two of his 
administration, and certainly join in the comments about naming 
George Mitchell the special envoy to the Middle East. And I 
hope, as we hear from you today, that we can work together 
collectively to overcome the many obstacles that exist and 
encourage the compromises that will need to be made in order to 
facilitate a comprehensive two-state solution between Israel 
and the Palestinian Territories.
    Mr. Blair, as I mentioned in my opening comments, there is 
an increasing sense of urgency on this issue, and many see the 
window of opportunity to reach a comprehensive peace and a two-
state solution getting smaller. You mentioned the window in 
your opening remarks, as well. I expect this urgency will 
continue to grow, particularly over the new few weeks as 
President Obama meets with the region's leaders and prepares to 
give his address to the Muslim world in Egypt.
    What steps can and should be swiftly taken, once the 
Quartet's new strategic framework is released, to capitalize on 
the existing energy and goodwill? And how soon do you think a 
combination of high expectations and diminishing patience will 
begin to work against us?
    Prime Minister Blair. Thank you, Senator. I mean, I think, 
first of all, if we just go back for a moment to what happened 
in the year 2000, because I think it's very crucial to 
understanding what both the challenges, as well as the 
opportunities, are now. What happened, essentially, was, once 
the peace negotiations failed between then-Prime Minister Barak 
with President Clinton and Yasser Arafat--once those 
negotiations failed and then the intifada began in the year 
2000, really, for a long period of time, it was almost 
impossible to see how you could make progress. And then, the 
disengagement from Gaza happened. It happened unilaterally. 
But, to be fair to the Israelis, they took their settlers out 
of Gaza with them, and then they felt they got a security 
problem in return.
    I think, however, when the Annapolis process began again, 
if it had had more time, it actually could have borne a lot 
more fruit. And, to be fair, also, within that process, both 
sides did get down and negotiate some of the really tricky 
questions.
    I think, however, what we now know, partly as a result of 
the past few years, and as a result of the previous attempts to 
find peace, is, as you say, this opportunity that we have now 
is very directly linked to whether we can show the two peoples, 
if you like, the Israelis and the Palestinians, that, even 
though there has been all this history of past failure, 
nonetheless it's possible to perceive a future success.
    And what I would say--you know, sometimes people say to me, 
``What's different? I mean, how come you've had all this 
failure and now you're going to succeed?'' Now, I could say, as 
Senator Mitchell and I found in Northern Ireland, that actually 
we had decades of failed peace processes there that--and then 
one succeeds. But, I think now you can actually identify the 
objective factors that should lead us to be able to resolve 
this.
    One, truthfully, the Arab world has decided that it wants 
this issue resolved; it really does. Second, there is an 
administration that, as you rightly point out, at the outset is 
saying, you know, ``We are taking this issue seriously, we want 
to push it to resolution.'' Third, we have different 
Palestinian leadership. And fourth, I think we have a better 
understanding of what I would call the relationship between the 
reality on the ground and the political negotiation. And so, I 
think, over these next few months, the really critical thing is 
to reinvigorate the credibility of the whole path to peace, and 
the way of doing that is to have a strong, credible political 
negotiation, backed up by changes in the reality. And those 
changes, which are there on the West Bank, in the way we treat 
Gaza, in the building Palestinian security capacity--they're 
not impossible, either to define or to do. So, that's where I 
think we are now.
    And, as you rightly imply, this is the moment when doing 
this right at the outset of a new administration, with a new 
set of attitudes, if you like, emerging in that region, this is 
the moment when we've got an opportunity to do it. And the fact 
we have been unable to do it up to now should not, in my view, 
disillusion us or deter us from doing it in the future.
    Senator Feingold. I very much appreciate that response. And 
let me go on and say, here in Congress there's been a lot of 
discussion recently about how--and whether--the United States 
should engage with and provide aid to any possible Palestinian 
unity government, particularly, of course, if it were to 
include members of Hamas, provided, of course, that they agree 
to the Quartet's conditions to disavow violence, recognize 
Israel, and accept prior agreements. What is your assessment, 
first, on what you think the likelihood is that a Palestinian 
unity government could actually form? And, second, whether or 
not you think the Quartet should encourage or support the 
creation of such a government.
    Prime Minister Blair. This is obviously a key question in 
this whole business, and--you know, I think Egypt is to be 
congratulated in the efforts it's made and the enormous hard 
work it's put in to try and find a basis for Palestinian unity.
    I think what I would say is, one of the things I learned 
through my time in politics is that the only unity that works 
is a unity of genuine agreement. You know, in other words, I 
think a Palestinian unity government is, in principle, a 
desirable objective, for sure. Unity on the Palestinian side is 
a desirable objective, for sure. It makes it easier to resolve 
this whole process. But, it has to be a genuine unity. And the 
reason why the Quartet principles are there is not because we 
want to put obstacles in the way of Hamas or anyone else 
joining the process, but because they do define the parameters 
of unity for us to be able to get a solution to this issue.
    And, you know, there is a similarity, again, with, for 
example, the Mitchell Principles, in the context of Northern 
Ireland, where if people wanted to join the peace process, they 
had to sign up to the principles, and that was the gateway that 
they came into the process by.
    So, you know, my view is that there will continue to be 
attempts to get a unity government, but I do believe that that 
unity government will only work if there is a genuine political 
unity that is inspiring it and lies at its base. If there 
isn't, if we simply push the parties together without a proper 
and genuine unity, I think we will--we may find our path to 
peace more difficult rather than less difficult.
    Senator Feingold. You said that the Quartet will be 
releasing a new strategic framework for the peace process. As I 
mentioned earlier, achieving resolution of the Israeli-
Palestinian conflict is essential to the security of not just 
the two parties, but the region as a whole. So, I'd like to 
know what's being done to ensure that the regional dimension of 
this process is being adequately discussed. Is the Quartet 
working with the Arab League in developing this framework, or 
considering any aspects of the Arab Peace Initiative? And how 
do you view the role of the United States and the Quartet as 
partners with other key actors in helping to resolve the 
broader--the Arab-Israeli conflict?
    Prime Minister Blair. I think for all of us that see this 
as an issue that concerns the whole of the region, the regional 
dimension is obviously of, you know, fundamental importance and 
significance.
    So, I think the idea will be to take the Arab Peace 
Initiative, the outcome of the various discussions that will 
take place here and elsewhere over these next few weeks, and 
try--and obviously this is where the role of America will be 
central--try to outline a way forward. You know, I think people 
will want--after there's been a whole set of discussions and 
negotiations and interaction, they will then want to know, 
``Well, OK, and it amounts to what as a way forward?'' And I 
think that's what President Obama said a short time ago is 
absolutely right, we will want to see, after that, gestures and 
actions consistent with the two-state solution.
    Senator Feingold. Thank you very much, Mr. Blair.
    The Chairman. Thank you very much, Senator Feingold.
    Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    Mr. Blair, we had the fortune, some of us, of traveling 
last month to Israel and meeting with Mr. Netanyahu and Mr. 
Barak and others in the government. They--admittedly, they were 
only on their second day on the job, and had just come off of a 
campaign. We all know what that does to someone. But, in any 
event, they were--and I understand you've talked a little bit 
about this while we were gone--but, they were uniformly focused 
on the Iran problem. And one has to understand where they're 
coming from on it, because they can't be wrong. They--there's 
no room for error there. They have got to be right on that.
    This is the problem we've been talking about here--the 
Palestinian problem--is certainly an issue for them, but it's 
been going on for a long time. It--they were in--in my view, in 
talking with them, in an emergency view of the Iranian problem. 
How do you get them to shift from that to talking about the 
Palestinian problem, when they are so focused on an issue that 
they believe their very existence turns on the outcome of, and 
particularly when they believe it to be as imminent and as 
close as it is?
    Prime Minister Blair. It's perfectly natural--especially 
given the language used by the President of Iran, it's 
perfectly natural for Israel to be focused on this issue. I 
mean, if we were, any of us, politicians in--within the Israeli 
system, we'd be focused on it. Actually, incidentally, I think 
all of us should be focused on it.
    The question is--to my mind, is, What is the best way to 
deal with that? Is it to see that in isolation from these other 
questions within the region or as part of, as I say, one 
picture? And my view is that, when it comes to pushing back 
Iranian influence that's used for ends that undermine the 
stability of the region, we are in a stronger position to do 
that, a far stronger position, if actually we're making 
progress on the Israel-Palestine question. And so, in a sense--
because I often have this discussion with Prime Minister 
Netanyahu, Defense Minister Barak, and others within the Israel 
system, often, as well. What I say to them is, ``I'm not asking 
you to take your focus from Iran, but I am asking you to see 
the Palestinian question as bearing on that, as well.'' And so, 
it's not a question of looking at these things as if they're 
completely separate and different issues. And when we are 
trying to mobilize moderate and modern-minded opinion within 
that region, a resolution or a credible path to resolution of 
Israel-Palestine is an important part of doing that.
    Look, I--you know, I spend, obviously, a lot of talking to 
people on the--talking to people on the ground in Israel, but 
also in the Palestinian Territories, and in the wider region, 
too, for that matter. And the claim of Iran--this is the 
claim--I don't just mean the leadership of the Iranian regime, 
but people who support their basic world view--their claim is 
that we are essentially people who want to do down their fellow 
Muslims, and the proof of that is that the Palestinians, who 
should have a state, can't get statehood. And when we are faced 
with that argument, which we are, obviously one very important 
part of undercutting their attempt to rally support behind that 
view is to say, ``No, we're evenhanded. We believe in a state 
of Israel that's confidence of its security, but we are 
prepared, if the Palestinians are able and willing to take the 
right measures, to ensure that Palestinians also get the 
justice and dignity of statehood.'' So, that's why I say to 
people, ``You can't separate these questions out.'' In my view, 
it's a mistake and, actually, a very fundamental one, to do so.
    But, if we want to make progress also on the Iranian 
question and take that to a peaceful resolution, then progress 
in the Israel-Palestine question is an important part of doing 
that. And maybe more important than taking, you know, my word 
for it is to take the word of virtually every moderate, modern-
minded, sensible leader in the region, who would say the same 
to you, I think.
    Senator Risch. And I agree with that. The other leaders--we 
met with Mr. Mubarak and--President Mubarak and also with King 
Abdullah, and they did have that same position. But, I have to 
tell you that the fortitude I saw in Israel on that position 
was very, very strong, and I wish you luck in that regard.
    Let me just briefly talk about the unity issue. One gets a 
sense that the gap between the leadership in the West Bank 
versus the leadership, if you would call it such, in Gaza grows 
instead of comes closer together. How do you deal with that? 
How do you--if you're going to cut a deal--and we all want to 
see the deal cut--surely you can argue that you have a 
leadership in the West Bank to deal with it. But, what do you 
do in Gaza? I mean, who can guarantee that, if you shake hands 
and you make a deal, that the deal can be implemented? That 
seems to me to be an incredible challenge.
    Prime Minister Blair. That's an absolutely right question 
to ask. I don't think we can be sure, right now, as we speak, 
of what the attitude of people in Gaza would be in the future 
if we were able to restore credibility to the peace process in 
the Middle East. But, one thing I'm sure of is that it's worth 
us trying to find out. In other words, it is worth us pushing 
this process forward, on sensible and right terms, but 
precisely in order to give the people in Gaza a clear and 
visible objective that we set before them and say, ``This is 
what we're trying to do and why we're trying to do it.''
    Now, I don't know how, then, the reaction will be between 
the local people and Hamas, and that is obviously, as I say, as 
we speak now, we can't be sure of this. But, one thing I am 
absolutely sure of is that Hamas have a military grip on Gaza, 
but I don't know that they have a grip on the minds of the 
people in the same way. And therefore, my view would be that we 
should move forward in the way that I'm describing, we should 
be doing all we can to help the people in Gaza, without 
assisting Hamas, and then there is going to come--I mean, let's 
be clear, there will come a moment of reckoning, because there 
can only be one Palestinian state, West Bank and Gaza, and we 
need that state, as a state, as a whole, to be secure and 
stably run. And plainly, at the moment, you can't say that 
those people in Gaza, who will not even recognize the existence 
of Israel, can produce a stable partnership for peace. So, 
there will come a moment of reckoning on this, that's for sure.
    My point is very simple. We are in a better position to 
secure the right outcome at that moment, and peacefully, if we 
show there is a genuine, credible vision for a two-state 
solution, and, what's more, we're making progress in getting 
there.
    Senator Risch. Well, I wish you well in that regard, and I 
hope your optimism plays out. But, you know, we wanted--we 
Americans love elections, and we had an election over there, 
and it didn't come out exactly the way we wanted it. And so, 
the people there have not shown what I would call a real good 
vision in that regard. So, I hope that when we get to the point 
that you're talking about, that their vision is a little better 
than what it's been in the past.
    Thank you very much, Mr. Blair.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Risch.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    And, Mr. Blair, I want to thank you very much, not only for 
being here, but for your extraordinary international leadership 
on this issue. I think there is some reason for optimism with a 
new administration in Washington and a new administration in 
Israel. There's opportunity for new starts. And there seems to 
be more international support for moving forward with a process 
consistent with the roadmap than we've seen of late, and 
moderate Arab States seem to be more interested today. So, I 
think there is reason to believe that you can proceed.
    I think you've also outlined probably the only way you can 
do that with Hamas currently in control of Gaza. The good news 
is that we've seen a maturing of the Palestinian Authority on 
the West Bank, and that if we can move forward with progress on 
the West Bank and provide hope for the people of Gaza, then 
clearly you've made your point that we can't deal with Hamas 
unless they were to disavow their current position. I think the 
experiences in Northern Ireland underscore that point. So, I 
think you've outlined perhaps the only way we can proceed, and 
I think there is reason to believe that we can overcome some of 
these obstacles.
    I want to put another part of the equation, here. We 
haven't talked too much about the Golan in Syria. Some of us 
have been to Syria. I think we were all somewhat surprised to 
learn about how much progress had been made between Israel and 
Syria through Turkey prior to Gaza problems. There's been 
genuine agreement that if progress was made on that front, it 
would negate some of the influence of Iran and perhaps be an 
encouragement for the Palestinians moving forward with peace.
    I just want to get your observations as to how helpful it 
would be and whether it is realistic to expect that progress 
can be restarted between Syria and Israel.
    Prime Minister Blair. First of all, I'm all in favor of 
trying. I mean, I don't--I think there's no harm--and, indeed, 
a lot of good--in pursuing the Syrian track along with the 
Palestinian track; not in substitution for it, I would say very 
clearly.
    I think Syria's going to have to make a choice, though, in 
the end, as to whether it wants to be part of a successful 
peace process in the whole of the region. And, you know, for 
them, I think the Golan Heights issue could be resolved, but it 
won't be resolved unless it's absolutely clear that it's part 
of an enduring and lasting peace. And, you know, you have the 
leader of Hamas in Damascus, you have Corporal Shalit still--
Gilad Shalit--still in captivity, which you would think that 
some pressure could be brought to bear, and brought to bear 
very clearly, in order to get his release since it's such a 
hindrance to finding a way forward, as well as, obviously, 
inhumane.
    But, I guess what I would really say is, yes, I think the 
Syrian track is worth pursuing. Yes, we should pursue it. I 
believe that the Palestinian track moving forward is probably 
the most important thing in that track, also, showing signs of 
success.
    And I think, you know, one thing--it would be a reflection 
just--not merely from this time doing this, but in the time 
when I was Prime Minister of the United Kingdom and the Senate 
was talking about the elections that happened, the Palestinian 
side. And actually I think there were many reasons why those 
elections turned out in the way that they did, and so on. And 
I--you know, I believe that it--although we must take account 
of them, obviously, and recognize the outcome of those 
elections, nonetheless I still believe that if people in that 
region saw a genuine hope of a way forward, then the traction 
that those people who are extreme would have greatly diminish. 
And also, if there were political progress--and this is 
something we found in the Northern Ireland peace process--one 
of the things that's going to have to happen--and this is a 
difficult thing to say, but I think it's very important in 
this--is this concept of violent resistance has got to be 
consigned to the history books, because it's not merely that 
targeting innocent Israeli civilians through acts of terrorism 
is wrong, it's also totally counterproductive to the prospects 
of peace and to the prospects of Palestinian dignity, 
statehood, and advance.
    So, one thing that has to happen is that this argument, not 
just within the Palestinian context, but within the wide 
regional context, and this includes some of the statements that 
emanate from Syria, there's got to be an understanding that 
that whole concept of resistance based on terrorism holds the 
process back; it doesn't advance anybody anything. And, you 
know, when we finally got to the point in Northern Ireland when 
the Republican movement--without throwing aside all its history 
and what it felt and how, you know, this had all come about, 
but simply said, ``OK, we are now going to commit fully to 
peaceful negotiation,'' then that was what, in the end, did the 
deal, because then there could be no reason why there shouldn't 
be power-sharing, which was the equivalent, in the sense of 
statehood. And, likewise, I mean, truthfully, if in Gaza people 
said, ``Violent resistance, we are now--that's out. What we're 
going to do is, we're going to use this political process, and 
we're going to make that as our means of advancing our cause,'' 
you would be concluding the negotiations for a state, in my 
view, within a pretty short space of time. Now, obviously we're 
not in that situation, we're in the opposite, for the moment. 
But, that's why I think that one clue as to what countries like 
Syria can do in this situation, and their goodwill, will be 
demonstrated by whether they're prepared to move away from that 
concept that has really done so much damage to the process of 
peace within the region.
    Now, I'm afraid the recent comments by President 
Ahmadinejad there in--when he visited Damascus, was unhelpful 
in that regard, but, at some point, people have got to 
understand, because I think our position--I mean ``ours'' in 
the intelligence community, and I think this is the position of 
America, too--is really pretty clear. We're prepared to move 
heaven and earth to get the two-state solution, but we will not 
expect Israel to take risks with its security. So, everyone can 
work that out. You know, if we're going to make progress, we've 
got to do so with those--that determination sitting alongside 
the fact that nobody here in America, and actually nobody, when 
they think about it, in the broader international community, is 
going to support anything other than a peaceful, nonviolent 
negotiation to a two-state solution that protects Israel's 
security as well as offers the Palestinians statehood.
    Senator Cardin. Well, I think you've given the right 
definition of what is meant by ``normalization of relations.'' 
I mean, if you're going to have peace, you're going to have 
peace. And that includes the whole aspect. When King Abdullah 
was here, he talked openly about that being the expectation 
that needs to be met. It's not only normalization of the 
relations between neighbors; it's also denouncing extremism, as 
far as the use of force. The reason I mentioned Syria is that 
we shouldn't be surprised with statements made by the Iranian 
leaders. They're very interested in keeping Syria as an ally. 
Look, Syria's doing a lot of bad things. We know that. We go 
into this knowing full well that we have a state that has 
sponsored and facilitated terrorism and has aspirations which 
are inconsistent with stability in the region. But, if Syria 
made progress with Israel and we were really able to get that 
type of normalization between Israel and Syria, then you're 
breaking the alliance between Syria and Iran, which is another 
part of the equation here, to try isolate the extremism of Iran 
from its neighbors. That would have, I think, a very positive 
aspect about one of the major concerns that Mr. Netanyahu has. 
So, I think these all sort of fit together. I agree with you 
completely, one should not be at the exclusion of the other. 
And I think there's a different set of challenges with Syria. 
But, we do need to address the issue of Iran that has been very 
much in the mind of Mr. Netanyahu.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you very much, Senator Cardin, I 
appreciate the questions.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Welcome, Mr. Blair. We're delighted to have you here.
    I would like to follow up a little bit on the discussion 
you had with Senator Risch about the connection between Iran 
and progress on the Palestinian issue. And in the conversations 
that you've had with Israeli leaders, whether it's Prime 
Minister Netanyahu or Minister Barak, is--was it your 
assessment that they appreciated the analysis that you were 
making and agreed that there might be an opportunity to make 
some progress on the Iranian front by addressing the 
Palestinian issue?
    Prime Minister Blair. Look, their view is very simple, 
that--and, in a sense, I think it's really this, which is--
look, whatever happens, the Iranian question has to be 
confronted. I think that they do understand, however, the 
argument that we would put, which is, if you're to mobilize the 
majority across the region in favor of a sensible engagement of 
a peaceful coexistence within the region, then the Palestinian 
issue has a role to play. I think what they--I think their 
fear, actually--I mean, it's not for me, again, to put words in 
their mouth--but, I think their fear would more be if we said, 
``Look, the Palestinian''--if we went to the opposite extreme; 
in other words, said, ``The Palestinian issue is what we are 
concerned about, but Iran we put to one side''--my view is 
that, as I say, they both have to be dealt with, but I do 
believe we are in a far stronger position to resolve the 
Iranian question successfully by diplomacy, even by taking 
steps of pressure, if it is clear that, on this issue, the--the 
Palestinian issue--that there's such resonance right across the 
Arab and Muslim world is being properly addressed.
    Senator Shaheen. Thank you. I was in the Middle East for 
the Palestinian elections in 2006, and certainly many of the 
Palestinians that we talked to as part of that mission 
indicated their support for Hamas was based, not on support for 
a terrorism organization, but on the corruption that they had 
seen from the Palestinian Authority and Fatah, the inability of 
the PA to deliver services, and that Hamas, they viewed as an 
alternative that might better be able to deliver social 
services throughout the West Bank and Gaza, and restore order 
that seemed to be lacking in many areas under the Palestinian 
Authority.
    So, I guess my question is, Given what we've seen in the 
West Bank--and I know that there has been some progress 
recently with respect to supporting President Abbas and the 
leadership of the Palestinian Authority--what more should the 
Quartet--what more should we be doing to provide support for 
legitimate Palestinian government on the West Bank that would 
give encouragement to all Palestinians that this is--and to 
Israelis--that this is a government leadership that they can 
count on?
    Prime Minister Blair. First of all, I entirely agree with 
you, Senator, about the elections. I think there were many 
reasons for the outcome of those elections. And they don't lead 
me to change my view that, if we made substantial progress, we 
could mobilize majority support amongst the Palestinians.
    And also, you're absolutely right to point out the huge 
impact of Prime Minister Fayyad and his reform program. I mean, 
one of the things that we did when we held the conference in 
Paris in December 2007 is that we didn't just raise a 
substantial sum of money for the Palestinians, we also--for the 
first time, that money was marked against a reform and 
development plan that was a serious plan drawn up by serious 
people. And that also makes a big difference. And what Prime 
Minister Fayyad personally has done, with the support of 
President Abbas, is to make changes in Palestinian security 
capacity that now mean, actually, in substantial parts around 
the area, there up in and around Jenin and down in Nablus, down 
in Hebron--there is a lot more work now being done by the 
Palestinian forces and they are, then, cooperating with their 
Israeli counterparts in trying to iron out some of the 
difficulties that there are between them.
    So, you know, this is--this could be done. But, the thing 
that's going to make the difference is that we take these 
concrete practical measures on the ground--and, you know, I 
have done this now for 18 months--and we have produced a 
package of measures that, I have no doubt, if we took and we 
did, they'd make a difference to the psychology of the average 
Palestinian living on the West Bank. Unfortunately, for the 
moment, that's just--you know, talk about the West Bank rather 
than Gaza. But, there's no doubt in my mind that implementation 
of these measures would make a significant difference.
    And what we need from the Israeli Government there, is for 
something really very simple; we need what Prime Minister 
Netanyahu's been saying about an economic peace to be taken at 
its face value, to be worked on and delivered. Now, it's not a 
substitute for the political negotiation, of course. But, it's 
still important. So, sometimes people say to me, ``Well, you've 
got to tell the Israelis, you know, ``We don't want to hear 
this about an economic peace.'' And I say, ``No, actually we do 
want an economic peace, but we want a political peace, as 
well.'' But, if you can get genuine economic change going on in 
the West Bank, it will make a difference, for sure.
    Senator Shaheen. Let me also ask you--one of the things 
that I have--has been pointed out to me recently is that there 
is interest on the part of some of the younger leadership among 
the Palestinians in taking action if they don't see some change 
in President Abbas's administration, and see things 
differently. Do you think that's real? Is there a real 
potential that some of the younger leaders on the West Bank 
could actually provide an ultimatum or make it clear that they 
are going to make some changes if they don't see a change in 
the leadership there?
    Prime Minister Blair. Well, I think it's important that a 
new generation of leadership is brought on in time. And that's 
why one of the things that President Abbas is addressing, quite 
rightly, is the issues--along with Abu Abu Ala and others, the 
issues of Fatah reform. And that's important.
    You know, the only leadership that's going to work, in the 
end, is the leadership that's committed to statehood. And, you 
know, what I always say to Palestinians that I talk to about 
this is to say, you know, ``We need, if we get this process 
going again, properly and credibly, we need to shift your 
mentality from that of resistance, which is one type of 
mentality, to governance, which is another type of mentality. 
Now, we've got to make it real,'' but--``for you,'' but if we 
do, then that's where they--this younger generation should be 
concentrating, on actually how they're going to run a 
Palestinian state.
    Senator Shaheen. Thank you.
    The Chairman. Thank you, Senator Shaheen.
    Senator Kaufman.
    Senator Kaufman. Thank you for what you're doing. I've been 
sitting here for 2 hours listening to a tour de force. I mean, 
it really is quite incredible, the grasp we have of this. And I 
think how many of the--of what you say, the members agree with. 
And--but, of course, when you look at this problem, it is so 
incredibly intractable and so incredibly difficult, but I have 
a real advantage; my mother was Irish and my father is Jewish, 
so I've followed both of these issues quite closely. And I 
don't think many people really understand how difficult the 
Irish problem was. And I think we have assembled here, kind of, 
the dream team, having you and George Mitchell both come back 
to solve the intractable one. So, I feel good about that.
    I just wanted to ask you, How is coordinating things with 
Senator Mitchell? How is that going? How is that working?
    Prime Minister Blair. One of the great benefits of having 
Senator Mitchell on this task is, first of all, that he's, in 
my view, a very clever, as well as principled, leader in the 
political field, and the other is that we worked very closely 
over the Northern Ireland deal. And actually, he and I have 
just been talking this morning--I mean, we keep in close 
contact with other--have been this morning about how we worked 
together to push this forward. And I think, you know, there's a 
great degree of agreement on the different elements--the 
political, the economic, the security--how we should make 
progress here.
    And, you know, I learned two things, at least, and possibly 
three, after the Northern Ireland experience, and--you know, 
there are many, many differences, let me put that on the table; 
of course there are. But, one is that you need a determined 
focus. And that's why what President Obama has done in the new 
administration is so important. Second--and that's why I have 
my maps there--you need to focus on detail, the detail matters. 
I mean, people sometimes said to me, ``What on earth are you 
doing, knowing about this checkpoint or that checkpoint?'' And 
I said to them, ``I used to know the most intimate details 
about bits of the security operators alongside the border in 
Ireland, because they had an impact on whether you could get a 
deal or not.'' So, detail matters.
    And I guess the final reflection is that, you know, as you 
see with Dr. Paisley sitting down with Martin McGuinness, it is 
possible for your enemy to become your friend. So--or at least 
your partner. And I think that, however difficult it is, you 
know, it's not simply optimism that fuels my search for 
something that works, here. It's also that I don't see the 
alternative. I mean, the alternative is conflict. So, however 
much we have to try, and however long we have to try, and 
however many times we have to try and retry, we've got no 
choice if we're to act responsibly toward the challenges we 
face in this region and the wider world.
    Senator Kaufman. Any response to Senator Risch's column? 
You talked about the day of reckoning, when we actually get to 
a two-state solution. Is there any progress being made, in 
terms of getting the two sides and the Palestinians together 
in--any kind of developments that are anything optimistic?
    Prime Minister Blair. Well, the Egyptians have done a 
heroic task on this. And I think they have isolated the key 
questions and got to grips with them. But, as I was saying in 
answer to a question earlier, ultimately, to agree, you've got 
to agree, and you've got to agree on the objective--a two-state 
solution--and you've got to agree on the means of getting 
there--politics, not violence. So, that, I think, is at the 
heart of where this thing--this thing comes to. And I think, 
you know, people want there to be unity on the Palestinian 
side, but, as I was saying earlier, it must be unity that's 
real.
    Senator Kaufman. Can you talk a little about the Russians' 
role in the Quartet?
    Prime Minister Blair. I have to say that Russia has been 
actually very supportive of what we've done, and I have found 
them, during the course of this process, as members of the 
Quartet, supportive of both what we're trying to do and the 
wider process. So, I can't say I have any complaints at all; on 
the contrary.
    Senator Kaufman. And what's the role of the EU, in terms of 
building institutions in the Palestinian state--I mean, the 
Palestinian areas?
    Prime Minister Blair. The European Union, for example, has 
just put together a comprehensive set of proposals. I mean, 
these are proposals that the Palestinian Authority and Prime 
Minister Fayyad--these are--this is his desire, his wish, it's 
his plan, his program, but we have put forward proposals that 
can support that. And I think the Europeans have an important 
role to play, not merely in terms of financing the Palestinian 
Authority, but also in capacity-building and institution-
building, since these institutions are so crucial to statehood.
    Senator Kaufman. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Kaufman.
    I couldn't agree with you more, I think we've been treated, 
this afternoon, to a terrific opportunity to be able to look 
inside quite a few years of the highest level of leadership's 
struggles with this particular issue, and it's a rare insight, 
and an important one for the committee, and we're very grateful 
to you, Mr. Prime Minister, for helping us to establish this 
benchmark as we go into these next weeks and months of meetings 
and, hopefully, negotiations.
    I know you have a 4:30, and we promised to get you out of 
here--there is a topic that I want to get your quick comments 
on, if we can. Before I do, if I could just say to you that 
we've dwelled quite significantly, and appropriately, on the 
steps on both sides that could be taken, particularly the 
settlements issue. And I raised it in my opening, and I concur 
with you completely, it would just have a dramatic, enormous 
impact on raising the other issues to a new moral plane and to 
really leveraging Israel's larger interests in an important 
way, and our larger interests. At the same time, there's one 
other component of it, and that is the freedom of movement of 
and the improvement of day-to-day life for Palestinians.
    I was struck, 5 years ago, when I was in Ramallah, meeting 
with President Abbas, literally the morning he was elected, and 
he turned to me, plaintively, to say that he knew what we 
wanted him to do, which was to disarm Hamas, and then he looked 
at me, and he said, ``Senator, you tell me how I'm supposed to 
do that. I don't have any police, I don't have any radios, I 
don't have any cars, I don't have any people who are trained.'' 
And then he went on to explain to me how Hamas had a greater 
ability to deliver services in the streets in Ramallah than he 
did, with money coming from charities and from outside, and the 
ability to pay off a suicide bomber's family, and so forth. And 
it just sort of hit me at that level of Politics 101 being 
practiced, and his inability to practice it.
    Now, admittedly, there were issues of some questions of the 
abilities and corruption and other questions within Fatah. But 
as you've said, Mr. Fayyad has brought a whole new moment and 
era to the accountability and finances of the authority, and 
many people on the other side, as well as in other Arab 
countries, have enormous respect for him, as you know. So, that 
helps to contribute to this new moment.
    But, the Arab world has got to also engage in these major 
steps. It's not just Israel's role to change the dynamic. And 
there are so many things that they could do, as you know. And 
I'm going to have the privilege of being in Jordan in a couple 
of days at the World Economic Forum; I intend to try to lay out 
some of those things, because they've got to show their good 
faith here, and that involves travel, visas, flights, visits, 
economic assistance, ceasing to do certain things that we know 
they are doing. There's just a clear, bold list, and I think 
it's very important for us to be evenhanded in laying that out. 
And I'm sure you would agree with that.
    You have been enormously engaged, also, on the issue of 
global climate change. And we had an important meeting here, 
which you led, with corporate leaders, the CEOs of GE, Jeff 
Immelt, John Chambers, of Cisco, Florida Power & Light, DuPont, 
Dow Chemical--I mean, it's an extraordinary array of companies 
who are looking for a response. A lot of Americans aren't aware 
of the corporate desire to have this market signal set, and for 
us to begin to move on global climate change. As you know, 
Great Britain has been a leader. They have a superb wind 
project that is being undertaken now. The EU has set a very 
high goal for reductions in emissions.
    And I wonder if you would underscore to us, to Americans 
today, and to the committee, the global security implications 
of this issue and what your belief is about Copenhagen and its 
importance, and American leadership with respect to it.
    Prime Minister Blair. Thank you. And, first of all, I agree 
entirely with the concluding remarks you made on the Israel-
Palestine question.
    In respect of global climate change, I mean, this is a huge 
issue for, not just the long-term future of our environment, 
but for our security, our stability, for the reasons of long-
term energy policy, and people are anxious--desperate, even--to 
see that U.S. leadership out there showing the way forward.
    There is a tremendous commitment now from within Europe. I 
believe there is a sincere desire on the part of the leadership 
of China to play its proper part in reaching a global 
agreement. And what I would say is that, provided we can show 
that we're setting the world on a new path toward a low-carbon 
economy, there are massive business opportunities and job 
opportunities in this also. I mean, we now employ, in the 
United Kingdom, far more people in the new environmental 
technologies than we do in coal, steel, and shipbuilding, some 
of the traditional stable industries of the United Kingdom put 
together, and doubled. So, it is possible for this to be a 
situation in which we make progress on our economy whilst 
changing the nature of that economy so as to make it compatible 
and sustainable, in terms of our environmental responsibility. 
And it's urgent, this--I mean, look, I'm not a scientist, and 
I'm not an expert, but, I think, in any other walk of life, if 
you had that degree of scientific consensus about a problem, 
you would, as a political leader, feel a great responsibility 
to achieve a solution.
    So, that's the point we're at, and I think if it--you know, 
there are two things that are necessary now. One is to take 
this issue, as it were, out of the realms of a campaign and put 
it in the realms of practical, severely practical policymaking 
so that we get severely practical solutions to these questions. 
And, second, for American leadership to lead us to an agreement 
at the end of the year in Copenhagen that would demonstrate, 
not only a combined, collective commitment, but also be a major 
step forward for the credibility of multilateral change.
    The Chairman. And, just very quickly, Mr. Prime Minister, 
could you say something about what is at stake, in terms of 
real security implications--failed states, refugees, the kinds 
of challenges that we really face based on what the science is 
telling us is happening now?
    Prime Minister Blair. I think it's very clear--and this is 
one of the reasons, incidentally, why some of the developing 
countries, not least China, now take this issue so seriously. I 
mean, the impact, if we do not deal with this issue and the 
science turns out to be correct, the impact will be 
devastating, in terms of the dislocation of people, in terms of 
drought, serious land erosion, in terms of how people feel 
capable of meeting the challenges of an environment that will 
be changing very fast indeed around them. And I think that 
there are, you know, fundamental reasons to do with our future 
security, as well as issues to do with the environment, which 
make this issue absolutely a top priority for us, urgent, and--
at the end of the year, we'll have a chance to demonstrate 
whether we--where there's the will there's also the way. And 
that's what we must do, for sure.
    The Chairman. Well, we thank you.
    Senator Risch, did you have any final comment?
    Senator Risch. No, thank you, Mr. Chairman. Thank you for 
holding the hearing.
    The Chairman. Again, Mr. Prime Minister, we really are 
grateful to you. This has been unbelievably helpful, and I 
think you spoke with great candor and obviously with a lot of 
expertise on some very tough questions. And it's a good 
baseline to have established as we enter into this new period. 
I can't think of anybody who could have brought us a better 
sort of explanation of it.
    So, thank you so much for arranging your schedule to be 
able to be here today. We're very grateful to you, and we look 
forward to continuing to meet with you in the days ahead.
    Prime Minister Blair. Thank you.
    The Chairman. Thank you.
    We stand adjourned. Thank you.
    [Whereupon, at 4:06 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


   Prepared Statement of Hon. Christopher J. Dodd, U.S. Senator From 
                              Connecticut

    I would like to begin by thanking you, Chairman Kerry, for holding 
this important hearing today. I would also like to thank Mr. Blair for 
taking the time to join us today and for his years of dedicated work in 
the search for Middle East peace.
    Your work to engage the international community and help promote 
Palestinian development is a critical component of the Quartet's peace 
efforts, and you have done a remarkable job despite these trying 
economic times. Similarly, your sense of appreciation for the issues at 
play and depth of regional knowledge are tremendous assets to the 
Quartet's efforts. I think I can speak for the whole of this committee 
when I say that we are grateful that you have chosen to take on such a 
monumental task.
    Mr. Chairman, the weeks and months ahead represent a historic 
opportunity for the United States and international community to 
restart and reenergize the Israeli-Palestinian peace process. Over the 
past 6 months, we have seen the danger of letting this conflict remain 
unresolved, and it has become clear that the status quo is truly 
unacceptable.
    The United States must remain active and honest mediators between 
Israelis and Palestinians, and continue to lead negotiations with the 
aim of establishing two states, a Jewish state of Israel and sovereign 
Palestinian state, living side by side and in peace. President Obama's 
appointment of Senator George Mitchell--a good friend of many on this 
committee, including myself--was a tremendous step forward, and an 
indication of the Obama administration's commitment to achieving a 
lasting and comprehensive peace.
    While the opportunity and need for robust U.S. leadership is clear, 
so, too, are the challenges ahead. Israelis continue to live under the 
constant threat of rocket fire and terrorist attacks. Hamas, in control 
of the Gaza Strip, remains dedicated to the obliteration of the state 
of Israel, and some political forces in the West Bank refuse to 
recognize Israel's identity as a Jewish state.
    At the same time, Palestinians living in the West Bank struggle to 
live normal lives due to continued settlement expansion--both 
authorized and unauthorized. While in Gaza, nearly 1.5 million 
Palestinians living under the control of Hamas have found their access 
to even the most basic of goods curtailed. Whether they are Israeli or 
Palestinian, there are victims on both sides of this conflict, and the 
status quo is not acceptable.
    Despite all of this, the challenges are not insurmountable. A 
Quartet-led joint Israeli-Palestinian program to rebuild and strengthen 
Palestinian security forces has shown that regional cooperation is not 
only possible, but effective. The United States and the international 
community stand committed to bringing the two parties together, and 
both President Obama and Secretary Clinton have made clear that the 
establishment of a state of Israel living side by side with a 
Palestinian state is one of America's top foreign policy priorities. We 
must follow through with this promise. We must engage in robust 
diplomacy that, first and foremost, recognizes Israel's precarious 
security situation, as well as the national aspirations of the 
Palestinian people.
    Mr. Chairman, in 1978, while the region was still recovering from 
the 1973 Israeli-Arab war and the prospects for peace seemed dimmer 
than ever, it was the work of diligent, principled U.S. leadership that 
helped forge a permanent peace between once sworn enemies Israel and 
Egypt. I have no doubt that, in cooperation with the Quartet and our 
partners in the international community, we can once again achieve what 
so many have called the impossible.
    Mr. Blair, thank you again for joining us today. I look forward to 
working with you in the weeks and months ahead.

                                  <all>

</pre></body></html>
